      GOVERNMENT PERFORMANCE AND RESULTS ACT
     REPORTING ON DEFENSE WORKING CAPITAL FUNDS
                NET OPERATING RESULTS


Report No. D-2001-021               January 10, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DWCF                  Defense Working Capital Fund
GPRA                  Government Performance and Results Act
USD                   Under Secretary of Defense
                       Office of the Inspector General, DoD
Report No. D-2001-021                                             January 10, 2001
  (Project No. D2000FJ-0105)

         Government Performance and Results Act Reporting on
         Defense Working Capital Funds Net Operating Results
                               Executive Summary
Introduction. The Government Performance and Results Act of 1993 requires
agencies to submit annual performance reports in March of each year. The DoD
annual performance report is published in the Annual Report to the President and
Congress (Annual Defense Report). This audit relates to DoD Subordinate
Performance Goal 2.3, “Streamline the DoD infrastructure by redesigning the
Department’s support structure and pursuing business practice reforms.” The Defense
Working Capital Fund provides support services to the Military Departments. The
support services include supply management, depot maintenance, finance and
accounting, information services, and commissary.

Performance indicators are used to determine whether performance goals are met. The
net operating result is one of the performance indicators included in the Annual Defense
Report for each activity group of the Defense Working Capital Fund. Performance
Measure 2.3.8, “Defense Working Capital Fund Net Operating Results,” includes a
schedule showing net operating results for Defense Working Capital Fund activity
groups and a short narrative. The net operating result is defined as the difference
between an individual fund’s revenue and its costs. The Under Secretary of Defense
(Comptroller/Chief Financial Officer) compiles the revenue and cost information.

Objectives. The overall objective of the audit was to determine whether the net
operating results for the activity groups of the Defense Working Capital Fund were
consistently and accurately compiled. We also assessed internal controls to determine
whether management complied with the Government Performance and Results Act
of 1993.

Results. In reporting Net Operating Results for the Defense Working Capital Funds,
the Under Secretary of Defense (Comptroller/Chief Financial Office) chose to include
performance results for eight activity groups that compile net operating results. The
information included for the eight activity groups was not consistent and did not
accurately reflect operating results. Also, no explanation was provided for significant
differences between budgetary information used to measure performance and
information in the accounting records. As a result, the FY 2000 Annual Defense Report
contained incomplete and inconsistent net operating results for the Defense Working
Capital Funds and the value of the metric was unclear. Implementing the
recommendations will provide a more informative indication of Defense Working
Capital Fund operating results. See the Finding section for the audit results and
Appendix A for the audit process used.
Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller/Chief Financial Officer) disclose the effect of non-recoverable losses on
net operating results, use budgetary reports consistently in reporting net operating
results, and disclose the differences between net operating results used to set customer
rates and those used for financial reporting purposes.

Management Comments. The Director of Program Analysis and Evaluation, Under
Secretary of Defense (Comptroller/Chief Financial Officer), nonconcurred with the
draft recommendations. The Director stated that it was not meaningful to compare
operating results reported on accounting reports to operating results reported on
budgetary reports and disagreed with the example we used. A discussion of
management comments is in the Finding section of the report, and the complete text is
in the Management Comments section.

Auditor Comments. The Director’s comments are partially responsive, and we
modified the report and deleted two recommendations and revised one recommendation
based on them. We continue to believe the DoD needs to use budgetary information
consistently. We also believe that DoD needs to disclose in the Annual Defense Report
that official accounting reports were not used in the compilation of net operating results
and explain why. Accordingly, we request that the Under Secretary of Defense
(Comptroller/Chief Financial Officer) provide additional comments in response to the
final report by March 12, 2001.




                                            ii
Table of Contents

Executive Summary                                                        i


Introduction
     Background                                                          1
     Objectives                                                          2

Finding
     Compiling Defense Working Capital Fund Net Operating Results       3


Appendixes
     A. Audit Process
          Scope and Methodology                                          7
     B. Performance Indicator 2.3.8                                      8
     C. Report Distribution                                             10

Management Comments
     Under Secretary of Defense (Comptroller/Chief Financial Officer)   13
Background
    The Government Performance and Results Act (GPRA) of 1993 requires
    agencies to submit annual performance in March of each year. The GPRA
    seeks to improve Government-wide program effectiveness, Government
    accountability, and public confidence by requiring agencies to identify
    measurable annual performance goals against which achievements can be
    compared. The DoD annual performance report is published in the Annual
    Report to the President and Congress (Annual Defense Report). This audit
    relates to DoD Subordinate Performance Goal 2.3, “Streamline the DoD
    infrastructure by redesigning the Department's support structure and pursuing
    business practice reforms.” The Defense Working Capital Fund (DWCF)
    provides support services to the Military Departments. The support services
    include supply management, depot maintenance, finance and accounting,
    information services, and commissary.

    Performance indicators are used to determine whether performance goals are
    met. The net operating result is one of the performance indicators included in
    the Annual Defense Report for each DWCF activity group. Performance
    Measure 2.3.8, “DWCF Net Operating Results,” includes a schedule showing
    net operating results for DWCF activity groups and a short narrative. The net
    operating result is defined as the difference between an individual fund's
    revenue and its costs.

    DWCF customer rates are used to finance selected DoD activity groups on a
    break even basis. During budget execution, activity groups record either a
    positive or a negative net operating result. As a result, customer rates are set to
    make up actual or projected losses or to return actual or projected gains in the
    budget year(s) as required by DoD Regulation 7000.14-R, “Financial
    Management Regulation,” volume 11b, “Reimbursable Operations, Policy and
    Procedures-Working Capital Funds,” February 1998. DWCF activity groups
    must break even over the long term.

    The net operating result for a given year is reported for rate setting on Fund-14,
    “Statement of Revenue and Expenses.” It is also reported on Accounting
    Report 1307 (AR 1307), “Statement of Operations,” for financial reporting.
    Military Departments and Defense agencies consolidate net operating result
    information during the rate-setting process. Each month, the Under Secretary
    of Defense (Comptroller/Chief Financial Officer) (USD) (Comptroller) checks
    the consolidated reports for accuracy by comparing results to target amounts.
    The USD (Comptroller) sets rates so that the accumulated operating result is
    zero.

    The USD (Comptroller) is responsible for compiling net operating results of the
    DWCF for the Annual Defense Report.



                                         1
Objectives
     The overall objective of the audit was to determine whether the net operating
     results for the activity groups of the DWCF were consistently and accurately
     compiled. We also assessed internal controls to determine whether management
     complied with the GPRA. See Appendix A for the audit scope and
     methodology.




                                       2
           Compiling Defense Working Capital
           Fund Net Operating Results
           In reporting Net Operating Results for the Defense Working Capital
           Funds, the Under Secretary of Defense (Comptroller/Chief Financial
           Office) chose to include performance results for eight activity groups that
           compile net operating results. The information included for the eight
           activity groups was not consistent and did not accurately reflect operating
           results. Also, no explanation was provided for significant differences
           between budgetary information used to measure performance and
           information in the accounting records. These conditions existed because
           the USD (Comptroller) chose not to:

            •   Present net operating results for activity groups that were verifiable
                to budgetary reports, or to accounting reports;

            •   Explain that non-recoverable losses affected net operating results;
                and

            •   Provide information on the significant differences between the net
                operating results used for rate setting and those used for financial
                reporting.

           As a result, the FY 2000 Annual Defense Report contained incomplete
           and inconsistent net operating results for the Defense Working Capital
           Funds and the value of the metric was unclear.

Compiling Net Operating Results
    The USD (Comptroller) prepared Appendix I of the FY 2000 Annual Defense
    Report to comply with the GPRA. The Appendix contained the DoD
    performance measures and indicators that the USD (Comptroller) decided to
    present in order to meet the reporting requirements of the GPRA. The
    Appendix also included a schedule that showed net operating results for
    FYs 1997 through 1999, projected net operating results for FY 2000 and FY
    2001, and a short narrative. The narrative states: “The Department obtained the
    data needed to calculate net operating result from the DWCF financial records
    maintained by the Services and Defense agencies.” It also stated: “The
    Department’s net operating result calculations conformed to the auditing
    requirements established by DoD Regulation 7000.14-R and by the Chief
    Financial Officers Act of 1990.” See Appendix B of this report for the
    complete text.




                                        3
     Reporting All Activity Groups. When compiling Appendix I for the FY 2000
     Annual Defense Report, the USD (Comptroller) did not fully present the net
     operating results for the overall DWCF. The report provided information on
     only eight activity groups. The USD (Comptroller) personnel told us that there
     were 27 activity groups in the DWCF, but the USD (Comptroller) did not
     choose to present a comprehensive listing of the activity groups in the GPRA
     report.

     USD (Comptroller) personnel informed us that they decided to report only a
     select sample of the large working capital fund activity groups. They stated that
     the other 19 DWCF activity groups were omitted in order to present only the
     most significant activity groups. The USD (Comptroller) personnel stated they
     believed that a comprehensive listing would confuse the reader.
     Consistent and Accurate Information. The information that was presented for
     the eight activity groups was not verifiable to accounting reports or budgetary
     reports. USD (Comptroller) personnel stated that the net operating results
     reported for GPRA should be the same as those reported during budget
     execution on Fund-14, “Statement of Revenue and Expenses.” However, the
     net operating results for four of the eight activity groups were not verifiable to
     Fund-14 reports, and five were not verifiable to the accounting reports.
     Specifically, the Annual Defense Report showed that the eight activity groups
     lost $78 million during FY 1999. However, budgetary reports showed that the
     eight activity groups made a profit of $116.5 million and AR 1307 reports
     showed that the 8 activity groups lost $2.2 billion. Details follow in Table 1.




                   Table 1. Net Operating Results for FY 1999
                              (Dollars in millions)

                                       GPRA             Fund-14            AR 1307
                                    Net Operating     Net Operating     Net Operating
DWCF Activity Group                   Results1           Results           Results2
Army supply management              $ 47.6            $ 47.6            $ (508.0)
Army depot maintenance                 71.1              19.1                19.1
Navy supply management               (102.1)           (102.1)           (1,186.5)
Navy aviation depot maintenance       (40.7)            (40.7)              (40.7)
Navy shipyard maintenance             (22.5)            (22.5)              (22.5)
Air Force supply management           (13.1)             87.8              (593.5)
Air Force depot maintenance            43.4             178.5               195.8
USTRANSCOM3                           (61.7)            (51.2)              (61.7)

    Total Operating Results         $ (78.0)           $ 116.5          $(2,198.0)




                                         4
1
  See FY 1999 Actual column, Appendix B
2
  Recoverable Operating Results from Part V of AR 1307
3
  U.S. Transportation Command




     The Annual Defense Report did not did not disclose that budgetary reports were
     used to compile the operating results for the DWCF activity groups instead of
     the official accounting reports used to support the requirements of the Chief
     Financial Officers Act of 1990. We believe the reason this was done merits
     mention and explanation. USD (Comptroller) personnel stated that AR 1307
     reports were not used for GPRA because those accounting reports included large
     losses that were not recoverable and were written off.

     DoD Regulation 7000.14-R, the “DoD Financial Management Regulation,”
     volume 2B, “Budget Formulation and Presentation,” June 2000, prohibits the
     recovery of extraordinary losses and gains that affect inventory and capital
     accounts. In addition, on July 3, 1996, the USD (Comptroller) issued a
     memorandum, “Measuring Operating Results in the Supply Management
     Business Area.” The memorandum stated that accounting reports would not be
     used to measure operating results for supply management activity groups for a
     variety of reasons. Those reasons included changes in inventory values caused
     by returns, disposals, and transfers that were outside management control and
     inadequate logistics feeder systems used to control inventory costs.

     Although DoD followed the established procedures to treat the accounting of
     non-recoverable losses, no explanation was provided in the GPRA reports to
     describe those events, which would explain the significant differences between
     what DoD reports as operating results and what is displayed in the accounting
     reports. We concluded that the USD (Comptroller) should provide this
     information in future Annual Defense Reports and disclose that there are
     significant differences between net operating results for rate setting and those
     for financial reporting and the reasons for them.

Recommendations, Management Comments, and Audit
  Response
     Deleted, and Renumbered Recommendations. As a result of management
     comments we deleted draft Recommendations 1 and 2 related to cumulative
     operating results. Consequently Draft Recommendations 3 and 4 are
     renumbered as Recommendations 1 and 2 respectively. We revised
     Recommendation 2 to address the consistent use of budgetary information.



                                         5
We recommend that the Under Secretary of Defense (Comptroller/Chief
Financial Officer):

   1. Disclose the effects of non-recoverable losses on Defense Working
      Capital Fund net operating results when compiling future Annual
      Defense Reports.

   2. Use budgetary reports consistently in reporting net operating results
      and disclose significant differences between the net operating results
      for rate setting and those for financial reporting in future Annual
      Defense Reports.

Management Comments. The Director of Program Analysis and Evaluation,
Under Secretary of Defense (Comptroller/Chief Financial Officer),
nonconcurred with the report’s recommendations. The Director stated there are
27 activity groups in the Defense Working Capital Fund instead of the 35
identified in our draft report. The Director also stated that the net operating
results presented for 8 of the 27 activity groups represented a sample of the
largest and most complex activity groups. He added that the draft report stated
that the Department should have used cumulative operating results in lieu of
annual net operating results, but the purpose of Net Operating Results as a
GPRA metric is to set annual operational and financial goals and measure
progress against these goals. The Director also stated that it was not meaningful
to compare cumulative operating results reported on accounting reports with
cumulative operating results reported on budgetary reports and disagreed with
the example we used. A discussion of management comments is in the Finding
section of the report, and the complete text is in the Management Comments
section.

Audit Response. The Director’s comments are partially responsive. We based
our review on 35 working capital fund budgetary reports that were provided to
us by the Military Departments and Defense agencies during the audit.
However, based on a review of a draft of this report the Director informed us
that we should have consolidated the 35 budgetary reports to 27 activity groups.
We changed the report to correct the number of activity groups. We believe
that budgetary reports need to be used consistently in the GPRA report. We
also continue to believe the Director needs to disclose in the GPRA report that
official accounting reports were not used in the compilation of net operating
results and explain why. Accordingly, we request that the Under Secretary of
Defense (Comptroller/Chief Financial Officer) provide additional comments in
response to the final report.




                                    6
Appendix A. Audit Process

Scope and Methodology
     Work Performed. We determined whether the USD (Comptroller) consistently
     and accurately compiled net operating results for eight Defense Working Capital
     Funds to the FY 2000 Annual Defense Report. We reviewed Fund-14,
     “Revenue and Expense” reports for FY 1999. We also reviewed AR 1307,
     “Statement of Operations” for FY 1999. We relied on the data presented in the
     summary reports.

     Use of Computer-Processed Data. We completed analytical review procedures
     on DWCF summary accounting information from FY 1992 through FY 1999.
     The information was compiled from diverse DoD financial and logistics
     systems. We tested the reliability and accuracy of the summary information.

     Audit Type, Dates, and Standards. We performed this financial-related audit
     from May 2000 through August 2000, in accordance with auditing standards
     issued by the Comptroller General of the United States, as implemented by the
     Inspector General, DoD.

     Contacts During the Audit. We visited or contacted individuals and
     organizations within the DoD. Further details are available on request.

Management Control Program
     Our review of management controls over GPRA reporting will be discussed in a
     summary report upon completion of the current reviews.

Prior Audits
     No prior coverage has been conducted on the compilation of operating results
     for the Government Performance and Results Act during the last 5 years.




                                        7
Appendix B. Performance Indicator 2.3.8
       The following information was presented in Appendix I of the FY 2000 Annual
       Defense Report.

      Table B.1. Performance Indicator 2.3.8 – DWCF Net Operating Results (Dollars in Millions)

                               FY 1997              FY 1998         FY 1999        FY 2000 FY 2001
                              Goal/Actual          Goal/Actual     Goal/Actual      Goal    Goal
  Army
   Supply Maintenance           –13.0 –27.9           9.8 21.9     –4.9     47.6      –3.3    –27.7
   Depot Maintenance             47.6 –136.3         18.3 133.7     9.6     71.1     –26.7      6.0
  Navy
   Supply Maintenance           –69.4 –209.5         87.5 26.3      65.9 –102.1      42.7     –68.3
   Aviation Depot               –10.3   18.7        –21.8 –18.3    –13.8 –40.7       +1.2
  Maintenance                                                                                  28.9
   Shipyard Maintenance             30.8    –3.4     83.1   83.4     4.0   –22.5      –9.9      3.5
  Air Force
   Supply Maintenance            21.1   28.6         36.6 316.7 –216.2     –13.1    –169.5   –129.5
   Depot Maintenance            156.3 –236.3        200.1 –34.6 133.2       43.4     –79.5    –34.4
  USTRANSCOM1
   Transportation                   42.7   –18.2     80.7 287.8      8.7   –61.7    –155.3     23.9
  1
      U.S. Transportation Command




       Metric Description. Defense working capital funds are used to finance selected
       DoD activities. Customers purchase products and services at prices that reflect
       all the direct and indirect costs of a given DWCF budget activity. Customer
       accounts are financed through direct appropriations, at a level commensurate
       with expected purchases from the respective fund. In addition to selling
       products and services to customers, DWCF budget activities may make
       purchases from one another, using sales revenue. As the DWCFs cover widely
       differing areas of DoD business operations, they each have unique management
       goals, which are reflected in their budget submissions.

       The net operating result is a management measure common to all working
       capital funds. Net operating result is the difference between an individual
       fund’s revenue and its costs. During the Planning Programming and Budgeting
       System process, net operating result goals are created to cancel out any
       shortages or surpluses from previous years. A net operating result that is higher
       than the assigned goal indicates that a fund may have exceeded expectations;
       conversely, one that is lower suggests a fund may have been less efficient than
       desired. If the net operating result target for a working capital fund is not met,
       the unique supporting measures for that fund (Table B.2) provide insights into
       the underlying causes.




                                                     8
                              Table B.2. DWCF Supporting Measures

Activity Group                    Timeliness                   Cost                       Quality
Army supply           UMMIPS1 standards set in DoD -Unit cost retail, wholesale   Fill rate
management            policy instruction           -Net operating result
Army depot            Schedule conformance         -Unit cost per DLH2            Percentage of quality
maintenance                                        -Net operating result          defects
Navy supply           UMMIPS1 standards set in DoD -Unit cost retail, wholesale   Fill rate
management            policy instruction           -Net operating result
Navy depot            Schedule conformance         -Unit cost per DLH2            Percentage of quality
maintenance                                        -Net operating result          defects
Navy shipbuilding     Schedule conformance         -Unit cost per DLH2            Percentage of quality
                                                   -Net operating result          defects
Air Force supply      UMMIPS1 standards set in DoD -Unit cost retail, wholesale   Fill rate
management            policy instruction           -Net operating result
Air Force depot       Schedule conformance         -Unit cost per DLH2            Percentage of quality
maintenance                                        -Net operating result          defects
USTRANSCOM3           UMMIPS1 standards set in     -Net operating result          On–time arrivals and
                      DoD policy instruction       -Variety of unit costs         departures
1
  Uniform Material Movement and issue and Priority System
2
  Direct Labor Hour
3
  U.S. Transportation Command
Source: Table I-6, Appendix I of the FY 2000 Annual Defense Report


    Validation and Verification Methodology. The Department obtained the data
    needed to calculate net operating result from the DWCF financial records
    maintained by the Services and Defense agencies. The Department’s net
    operating result calculations conformed to the auditing requirements established
    by DoD Regulation 7000.14-R and by the Chief Financial Officers Act of 1990.
    Net operating result information is consolidated Service– and agency–wide, and
    sent to the respective headquarters for review. The USD (Comptroller) checks
    the consolidated reports monthly for accuracy, comparing the results to target
    amounts. During quarterly execution reviews, senior financial and logistic
    managers from the USD (Comptroller) and Service staffs jointly examine the
    data to identify positive or negative trends in productivity and to monitor
    operational and cost–efficiency trends.

    Actual and Projected Performance. The FY 1999 net operating result
    performance was generally lower than planned at depot maintenance facilities
    and in the transportation fund due to smaller–than–expected workloads. The
    supply business areas had greater–than–expected returns that were due largely to
    the impact of contingency operations.




                                                  9
 Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organizations
Office of Management and Budget




                                          10
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Governmental Reform




                                       11
Under Secretary of Defense (Comptroller)
Comments




                   13
14
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD,
who contributed to the report are listed below.

F. Jay Lane
Salvatore D. Guli
James L. Kornides
Stuart D. Dunnett
Curt W. Malthouse
John R. Williams
Jacqueline Pugh
